Inspections Report I-99-12
U.S. DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
Inspections Division
The Violent Offender Incarceration and
Truth-in-Sentencing Incentive Grant Program
Summary of Inspection Findings and Recommendations
May 4, 1997  March 31, 1999
Report Number
I-99-12
September 1999
TABLE OF CONTENTS
Executive Digest
Introduction
Purpose
Overview of the VOI/TIS Grant
Program
Program Purpose
Eligibility Requirements
VOI Grants
TIS Grants
Special Conditions
Program Funding
Grant Recipients
Partnership for Program
Improvement
On-Site Methodology
Site Selection
Areas Reviewed
Application Information
TIS and State Correctional
Strategies
Grant Construction Projects
Administrative and
Financial Controls
Inspection Results
States' Application Data is
Generally Dependable
Statistics
Special Conditions
TIS Incentive Grants Influenced
Some States to Enact TIS Laws
States Receiving TIS Grants
States Not Receiving TIS Grants
States Have Correctional
Strategies
Summary
Progress is Slow for Grant
Construction Projects
Status of Projects
Reasons for Delays
Cost Per Bed for Projects Varies
Widely
States Generally Complied with
Financial and Reporting Requirements of the Grant Program
State Administering Agency
Matching Funds
Expenditures
Disbursement of Funds
Reporting Requirements
Conclusion
Correctional Strategies
Leased Beds
Matching Funds
Appendix I Program
Information
Appendix II Award
Amounts
Appendix III OJP
Sponsored Conferences and Workshops Attended by the Inspection Team
Appendix IV Findings
and Recommendations by Subject for the 25 States Reviewed
Appendix V Prior
Coverage
Appendix VI Influence
of Truth-in-Sentencing Grants on Enactment of Truth-in-Sentencing Laws for the 25 States
Reviewed
Appendix VII Beds Added by
VOI/TIS Projects and Other State Projects for the 25 States Reviewed
Appendix VIII Average
Cost Per Bed for VOI/TIS Projects for the 25 States Reviewed
#####